<html>
<title> - THE STATUS OF NO CHILD LEFT BEHIND IMPLEMENTATION IN OHIO</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
       THE STATUS OF NO CHILD LEFT BEHIND IMPLEMENTATION IN OHIO

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                    March 8, 2004 in Columbus, Ohio

                               __________

                           Serial No. 108-46

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov




                 U.S. GOVERNMENT PRINTING OFFICE

92-410                  WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001





                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director



                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 8, 2004....................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota.........................................     4
        K-12 Rules/Leave Parts of NCLB Behind, Editorial 
          Submitted for the Record...............................    50
    Ryan, Hon. Tim, a Representative in Congress from the State 
      of Ohio....................................................     8
    Tiberi, Hon. Patrick J., a Representative in Congress from 
      the State of Ohio..........................................     6
        Prepared statement of....................................     8

Statement of Witnesses:
    Fleeter, Dr. Howard, Levin, Driscoll & Fleeter, Columbus, OH.    18
        Prepared statement of....................................    23
    Rebarber, Ted, President, Accountability Works, Washington, 
      DC.........................................................    25
        Prepared statement of....................................    29
    Ross, Dr. Richard A., Superintendent, Reynoldsburg City 
      Schools, Reynoldsburg, OH..................................    15
        Prepared statement of....................................    18
    Tomalis, Ron, Counselor to the Secretary, U.S. Department of 
      Education, Washington, DC..................................    11
        Prepared statement of....................................    14

Additional Material:
    Allen, Gary L., President, Ohio Education Association, Letter 
      Submitted for the Record...................................    49
    K-12 Rules/Leave Parts of NCLB Behind, Editorial Submitted 
      for the Record by Rep. McCollum............................    50
    OEA, NEA Leave Facts Behind in Attacks on Bipartisan 
      Education Reform, Fact Sheet Submitted for the Record......    48


       THE STATUS OF NO CHILD LEFT BEHIND IMPLEMENTATION IN OHIO

                              ----------                              


                         Monday, March 8, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Columbus, Ohio

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., at the 
State Library of Ohio, Columbus, Ohio., Hon. John A. Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, Tiberi, McCollum, and 
Ryan.
    Staff Present: Amanda Farris, Professional Staff Member; 
Maria Miller, Coalitions Director for Education Policy; Dave 
Schnittger, Communications Director; and Joshua Holly, Director 
of Media Affairs.
    Chairman Boehner. Quorum being present, the Committee on 
Education and the Workforce will come to order.
    We're pleased to be here today to have the Committee here 
and have this hearing on No Child Left Behind, the 
implementation of the law. And I'm sure we'll talk about 
funding and a host of other issues as well.
    I want to welcome my colleagues, Mr. Tiberi, who we're in 
his district and is a Member of the Committee, and two of my 
colleagues, Betty McCollum, from the great state of Minnesota, 
and our other colleague from Ohio, Tim Ryan, a new Member of 
our Committee who represents the northeastern part of the 
district--part of the state.
    I'd also like to welcome this morning State Representative 
Arlene Setzer, who chairs the House Education Committee here in 
Ohio; Representative Bill Hartnett, who is the ranking member 
of the Ohio Education Committee; and Representative Clyde Evans 
and Representative Bob Gibbs. We also have Senator John Kerry 
with us, Representative John Schlichter, and Representative 
Kevin DeWine. We want to thank them for their interest and 
thank all of you for your interest in coming today.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    We're here today because we all believe that every child in 
America deserves a quality education. We recognize improving 
our education system is essential not only to our society, but 
it's also very important to our nation's economy and 
competitiveness. Even as important as our society and our 
nation's competitiveness is to our long-term future. It should 
be the right of every child to have a chance at a decent 
education. I'd like to describe the right to an education for 
all Americans as the new civil right of the 21st century.
    Three years ago, President Bush brought Members of our 
Committee together to write the No Child Left Behind Act. And 
we produced a law that was uniquely bipartisan, considering 
what the Congress has become over the last several years. And 
the real goal of No Child Left Behind was to make sure that all 
children have a chance to learn. The debate over whether all 
children can learn, I think, is open. There's ample evidence 
from one end of the country to the other that all children can 
learn, but it's also clear, unfortunately, that not all 
children have an opportunity to learn.
    Secondly, when we look at the achievement gap that we have 
in American education between advantaged students and 
disadvantaged students, it remains wide, even though the 
Federal Government has spent almost $300 billion to help 
disadvantaged students over the last 35 years. The same kind of 
achievement gap exists between white students and their 
minority peers. And we know that we as a society and we as a 
country can't continue successfully unless we get serious about 
closing the achievement gap in American education. And so when 
we look at No Child Left Behind, you'll see that we have all of 
the test data broken down in subgroups, looking at white 
students, minority students, limited English proficient 
students, and special ed. students to make sure that these 
students aren't getting lost in the school-wide averages, that 
we, in fact, are going to try to make progress with all 
children in America and all of these subgroups.
    There's been an awful lot of talk about funding No Child 
Left Behind. And someone who was in the room with the 
President, Senator Kennedy, Senator Greg and Mr. Miller, my 
democrat counterpart of my Committee, the commitment that we 
made in those meetings was to have a significant increase in 
education funding for our schools. And there's never been any 
discussion in those meetings about full funding of No Child 
Left Behind or any of the education programs.
    And if you look back through the history, the 38-year 
history of education spending on the part of the Federal 
Government, never once, not one time in that entire history 
were ESEA programs fully funded. Not once. During the 8 years 
President Clinton was in office, there was no funding of ESEA 
programs, and yet there was no criticism at all by democrats or 
republicans in the Congress that it wasn't fully funded. And so 
the question is, have we met our commitment in terms of 
significant increases in funding for those programs contained 
in Elementary and Secondary Education Act or, as we like to 
call it now, No Child Left Behind. And I think that the 
increases that we see--the year that the bill was signed into 
law, we were spending $8.8 billion for Title I, the largest of 
these programs. Last year we spent $12.3 billion, and this 
year, according to the President's budget, we're hoping to 
spend $13.3 billion. So you can see that we're well over a 50 
percent increase in the Federal Government's commitment to 
disadvantaged students.
    But it's not just disadvantaged students. How about those 
students who have special needs, our IDEA program, where we're 
seeing a tremendous increase over the last 10 years. As a 
matter of fact, if you go back to 1996, 1997, we have almost a 
300 percent increase in our commitment to help those special 
needs students. And if you look at just the Ohio numbers by 
themselves, when the bill was signed in 2001, we were spending 
about $445 million of Federal funds here in Ohio for all 
programs that are in No Child Left Behind. When you look at the 
numbers that are actually appropriated, the Federal Government 
will spend in this fiscal school year $665 million for No Child 
Left Behind programs, an increase of over 35 percent.
    And so I do believe that the Federal Government is keeping 
its commitment to helping our schools with the challenges that 
all of them face.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Thank you all for being here this morning for this field hearing of 
the House Committee on Education & the Workforce. Let me first thank 
Congressman Pat Tiberi for hosting us today. Let me also welcome 
another fellow Buckeye, Rep. Tim Ryan, as well as Rep. Betty McCollum 
from the state of Minnesota.
    We're here today because we all believe every child in America 
deserves a quality education. We recognize improving our education 
system is essential not only to our society, but to our nation's 
economy and competitiveness as well.
    Three years ago, President Bush brought the members of our 
committee together to write the No Child Left Behind Act. We produced a 
law that was uniquely bipartisan. We all agreed with the need to bring 
accountability to federal education spending. For years, states and 
school districts--pointing to rising overall student test scores--had 
accepted an ever-increasing amount of federal funding even as they hid 
the fact that certain groups of children were falling behind. States 
and schools were able to highlight ``aggregate'' data showing most 
students were making progress. But because they were required only to 
report this data in the aggregate, parents and taxpayers could be kept 
in the dark when some children were actually losing ground.
    No Child Left Behind requires student test data to be broken down 
by group and reported to the public. Achievement gaps between 
disadvantaged students and their peers, once hidden from public view, 
are now public knowledge. The law has shined a brilliant spotlight on 
the most neglected corners of our public education system--and while we 
haven't always liked what we've found staring back at us, we're better 
off as a nation because we've admitted it's there and can now do 
something about it.
    When the President signed NCLB in Hamilton two years ago, we knew 
the hardest work was still ahead. It's one thing to pass a major law; 
implementing it is another. The Clinton administration discovered this 
the hard way during the 1990s when it passed its education reform plan, 
and ended up issuing dozens of waivers to states exempting them from 
the requirements. We assumed the education establishment would dig in 
and fight when it discovered President Bush was not willing to repeat 
those mistakes with the implementation of No Child Left Behind. That 
assumption has proved correct.
    It's disappointing that instead of working with states and local 
districts to implement this bipartisan law, the National Education 
Association and others have tried to dismantle it. In the two years 
since NCLB was signed, the President and Congress have proposed 
numerous bills to give teachers and states additional help in achieving 
NCLB's objectives. The House has passed legislation to reduce paperwork 
requirements for special education teachers. We've passed legislation 
to boost loan forgiveness for qualified teachers who agree to teach in 
high poverty schools. We've passed legislation to strengthen early 
childhood learning so children enter our elementary schools ready to 
learn. And President and Mrs. Bush have asked us to let teachers take a 
$400 tax deduction when they pay money out of their own pockets for 
classroom expenses such as crayons and books.
    All of these proposals have been offered to build on the 35 percent 
increase in federal teacher quality funding provided to states and 
schools under NCLB. But none have been enacted. Some of the teachers 
and school employees I talk to in my district have never even heard a 
word about these proposals from their union representatives. And that's 
a shame.
    What we do hear from union representatives is a lot about funding. 
So let's talk about that for a moment.
    Under NCLB, states have received an increase in federal education 
funding that can only be described as massive. The federal government 
is providing more than $1 billion annually to Ohio to implement No 
Child Left Behind. This includes $661 million in fiscal year 2003 for 
No Child Left Behind itself, and another $373 million in fiscal year 
2003 for the Individuals with Disabilities Education Act (IDEA). These 
numbers represent large increases over what Ohio was receiving before 
NCLB.
    The charts you see here show these increases on a national scale. 
Any way you slice it, federal spending on education has skyrocketed 
since No Child Left Behind became law. The numbers go nowhere but up.
    Pay particular attention to Title I spending. When you do the math, 
you find Title I received a larger increase during the first two years 
of the George W. Bush administration than it did under the previous 
eight years combined under President Clinton.
    The numbers for special education tell a similar story. As 
Education Daily reported on January 8, 2004: ``If [the President's 2005 
budget] request is approved, Title I spending will have increased by 
about 50 percent and special education spending will have increased by 
about 80 percent on his watch.''
    The truth is, Congress has been increasing spending more quickly 
than states can spend the money. Last year, states collectively 
returned about $124 million in federal education aid to the federal 
Treasury because they couldn't spend it before it expired.
    No Child Left Behind isn't about spending money. It's about what we 
do with the money we're already spending. It isn't about changing 
funding levels; it's about changing attitudes. It's about high 
standards, and recognizing all children can learn.
    It is a great credit to Ohio--in particular, to Governor Taft, 
Superintendent Susan Zelman, and the leaders of the Ohio General 
Assembly--that instead of bowing to those who contend money can solve 
the problems in our schools, the Buckeye State has taken a stand for 
high standards and accountability for results. The President signed the 
law in Ohio--and two years later, it's clear the President chose the 
right state for that historic action.
    I would like to thank everyone for attending today. I would 
especially like to thank our distinguished witnesses for their 
participation. I look forward to your testimony.
                                 ______
                                 
    Chairman Boehner. So we're glad that you're all here. With 
that, let me turn to our friend from Minnesota, Ms. McCollum.

STATEMENT OF HON. BETTY McCOLLUM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Ms. McCollum. It's a pleasure to join you here today in 
Ohio, Mr. Chairman. It's very fitting that I be in Ohio. It's 
because of the educational start I received in Dayton, Ohio as 
a kindergartner that helped me have a good foundation for 
having success for the rest of my public education. That is a 
success I wanted for my children as a parent and I want for all 
children in America.
    I'd also like to thank Mr. Tiberi for having such a 
wonderful district. I plan on coming back again. There's much 
to see and do here. And Congressman Ryan and I are also very 
proud to be here with Congressman Ted Strickland, who also 
represents a portion of Ohio.
    We have some charts in front of us that show educational 
funding. One of the first books I received when I started doing 
debate in high school and from my college debate, How to Lie 
with Statistics. There are things you can do with statistics to 
make cases both ways. I would just caution people as they look 
into this to ask some very serious questions about what is the 
baseline funding that was used and had the funding kept up with 
inflation in the past.
    I believe very strongly in importance of public education. 
My support for it is unwavering. It's unwavering for the 
educators, administrators and school board members and parents 
across the country who commit themselves to educate and improve 
the future for their children. I'm a Member of Congress today, 
as I said, because of the strong public education system that 
gave me the opportunity to achieve my dreams, my hopes. Our 
nation's democracy, prosperity and success are all built upon a 
foundation of public schools and every American's right to 
access a quality education. No one should ever tolerate a tax 
on our public education or public school teachers who we trust 
to educate and nurture our children every day.
    But as Sherman knows, I voted against Leave No Child Behind 
because I believe the law can be improved. Others believe 
Washington has all the wisdom, the wherewithal and the right to 
dictate to state legislators, school boards and parents what is 
best for our 84 million children in America's public schools. 
Some believe Federal mandates will improve educational 
achievement for our children. They believe that Washington 
knows better than parents, teachers, administrators, and 
elected school board members and legislators both here in 
Columbus or back in Minnesota. But I, along with others, have a 
different opinion. It does not make us obstructionists because 
we trust parents, teachers and school boards to determine what 
is needed for our children to succeed and achieve success in 
school. Some of us believe the Federal Government's role is to 
be a partner, supporting states, school districts and parents 
to achieve educational success based on standards that reflect 
the needs and the realities of our diverse population. Today we 
are likely to hear about, as we have, the billions of dollars 
the Bush administration is showering upon states to meet the 
public laws mandate, that 100 percent of America's children in 
public schools will achieve adequate yearly progress by 2014. 
By 2014, every public school attended by almost 50 million 
American children will achieve the goals harsh--will achieve 
either the goals set by the law or the harsh Federal penalties 
that will be imposed by the law. Perfection or penalties is a 
new education paradigm now in America. It is too bad that the 
Federal Government can break its own promises to states, school 
districts and students without a penalty. Everyone knows that 
Washington does not meet its commitment to fund special 
education. The Bush administration is, and I repeat, is 
increasing education funding. But it's failing to make adequate 
yearly progress, having already failed to provide the $26 
billion to fund Leave No Child Behind that Congress said it 
would in its initial signing. Should we hold state legislators, 
school boards and administrators accountable? Yes, we should. 
We also need to hold the White House and Congress accountable 
for its funding as mandates move forward.
    Last month in Minnesota, my state, a highly respected 
legislative auditor, Jim Nobles, who by the way is totally 
nonpartisan, put forth a grim report. Even as student test 
scores for math and reading improve significantly in the 
upcoming years, the report estimates that 80 percent of 
Minnesota's elementary schools will fail to make adequate 
yearly progress by 2014, resulting in disastrous consequences 
for the public education system in my state.
    A recent report prepared by the Ohio Department of 
Education raises serious questions about the cost of Ohio's 
taxpayers in meeting demands in this educational mandate. The 
report projects an enormous cost to Ohio taxpayers. While 
Washington adds $44 million in funding a year, it appears that 
Ohio taxpayers by 2010 could be forced to spend an additional 
$105 billion in educational costs. The report states, quote, 
the projected additional cost to fully implement No Child Left 
Behind will require expenditures beyond the additional Federal 
dollars committed thus far.
    For political reasons, defending Leave No Child Behind will 
likely result in both Minnesota and Ohio reports being attacked 
and criticized, but Ohio and Minnesota are not alone in raising 
these concerns. A list of states that are controlled by both 
democrats and republicans are protesting the law: Vermont, 
Hawaii, West Virginia, Arizona, Idaho, Indiana, New Mexico, 
Utah, Virginia, Washington, Maine, Oklahoma, Iowa, Kentucky, 
and South Dakota. These states have all voiced valid legitimate 
concerns about this law, and they need to be addressed by the 
Department of Education, but it needs to be addressed in public 
forums and not behind closed doors with offensive name-calling 
as we have witnessed in recent weeks.
    The point is clear, Leave No Child Behind needs to be 
fixed, and I want to work with the Chairman to fix it. Thank 
you.
    Chairman Boehner. The Chair recognizes the gentleman from 
Columbus, Ohio, Mr. Tiberi.

   STATEMENT OF HON. PATRICK J. TIBERI, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Tiberi. Thank you, Mr. Chairman. I'd like to welcome 
you and the Committee Members to Columbus, Ohio. I know the 
mayor encourages you to spend as much money as you can while 
you're here to help our local economy.
    I am pleased to be here with you this morning, and thank 
you for picking Ohio and Columbus, Ohio, to have this hearing 
to talk about the landmark education reforms in No Child Left 
Behind and their impact on the state of Ohio.
    I'd like to thank the State Library for allowing us to use 
their facilities today. I'd like to welcome all of our 
witnesses this morning, particularly Dr. Ross, who is the 
superintendent of the Reynoldsburg City Schools, which is 
within the district that I represent.
    As most of you know, No Child Left Behind, which 
reauthorized the Elementary and Secondary Education Act, 
reflects the four pillars of President Bush's education reform 
agenda: accountability and testing, flexibility and local 
control, funding for what works, and expanded parental options.
    The legislation requires annual testing of public school 
students in reading and math in grades 3 through 8, report 
cards for parents on school achievement levels, improved 
teacher quality requirements that ensure all students are being 
taught by a highly qualified teacher, and public school choice 
and supplemental service options for children in underachieving 
schools.
    State flexibility is a key element within NCLB. Individual 
states are given the flexibility to determine a variety of 
factors, including the definition of student academic 
proficiency, the starting point for progress measurement, and 
the amount of progress that must be made from year to year. 
They also have the flexibility to develop their own test to 
determine if existing teachers should be deemed highly 
qualified.
    In August of 2003, the Ohio General Assembly passed 
legislation that laid out exactly how Ohio would utilize this 
flexibility to meet the goals of No Child Left Behind. We have 
some of those legislators here today who worked pretty hard on 
that. As part of that legislation, the General Assembly 
required the Ohio Superintendent of Public Instruction to 
commission a detailed financial analysis of the projected costs 
of compliance with No Child Left Behind.
    While I appreciate all of the hard work that Columbus-based 
researchers Mr. William Driscoll and Dr. Howard Fleeter put 
into this report, I am concerned about some of the findings. I 
am particularly troubled by the contention that recent massive 
increases that the Chairman talked about in Federal education 
funding have not been adequate to allow Ohio to reach its goals 
under No Child Left Behind.
    President Bush and Congress have provided historic levels 
of Federal education funding to help states implement No Child 
Left Behind. In fact, Title I funding received a larger 
combined increase during the first 2 years of President Bush's 
presidency than it received in the previous 8 years combined 
under President Clinton. The Republican-led Congress has also 
kept special education funding among the highest education 
priorities, and as a result, special education funding has more 
than tripled in just 9 years.
    In fact, some of the reports indicate, and some of our 
colleagues have indicated to the Chairman and myself, that the 
Federal Government has been increasing education spending more 
quickly than some states can spend the money, raising new 
questions about the claims No Child Left Behind may be under 
funded. A recent analysis by the House Education and the 
Workforce Committee shows that by this summer, states will have 
received an average increase of 42 percent in Federal Title I 
aid for disadvantaged students since enactment of No Child Left 
Behind. These increases are coming even as many states still 
have not drawn down the $2 billion in Title I funds that were 
made available to them as far back as fiscal year 2000 before 
No Child Left Behind went into effect three and a half years 
ago.
    As the first person in my family to have graduated from 
high school, I personally know how important education and--a 
quality education is to being successful. As a proud graduate 
of the Columbus schools, Dr. Ross, I know what it's like to 
have experienced the education of an urban school and the 
difference between quality education and unquality education.
    I look forward to hearing from the witnesses today on 
information dealing with No Child Left Behind, how we can 
reconcile these figures with the findings of the Ohio cost 
study on No Child Left Behind. I also hope to hear about how No 
Child Left Behind is benefiting Ohio's parents, its teachers 
and its students. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tiberi follows:]

Statement of Hon. Patrick J. Tiberi, a Representative in Congress from 
                           the State of Ohio

    Thank you Mr. Chairman. I am pleased to be here this morning to 
talk about the landmark education reforms in No Child Left Behind 
(NCLB), and their impact on the state of Ohio.
    I would like to thank the State Library of Ohio for allowing us to 
use their facilities today. I would also like to welcome all of our 
witnesses here this morning. I am particularly pleased to welcome Dr. 
Dick Ross, the Superintendent of the Reynoldsburg City Schools.
    As most of you know, NCLB, which reauthorized the Elementary and 
Secondary Education Act (ESEA), reflects the four pillars of President 
Bush's education reform agenda: accountability and testing, flexibility 
and local control, funding for what works, and expanded parental 
options.
    The legislation requires annual testing of public school students 
in reading and math in grades 3-8, report cards for parents on school 
achievement levels, improved teacher quality requirements that ensure 
all students are being taught by a highly qualified teacher, and public 
school choice and supplemental service options for children in 
underachieving schools.
    State flexibility is a key element within NCLB. Individual states 
are given the flexibility to determine a variety of factors, including 
the definition of student academic proficiency, the starting point for 
progress measurement, and the amount of progress that must be made from 
year to year. They also have the flexibility to develop their own test 
to determine if existing teachers should be deemed highly qualified.
    In August 2003, the Ohio General Assembly passed legislation that 
laid out exactly how Ohio would utilize this flexibility to meet the 
goals of NCLB. As part of that legislation, the General Assembly 
required the Ohio Superintendent of Public Instruction to commission a 
detailed financial analysis of the projected costs of compliance with 
NCLB.
    While I appreciate all of the hard work that Columbus-based 
researchers Mr. William Driscoll and Dr. Howard Fleeter put into this 
report, I am concerned about some of the findings. I am particularly 
troubled by the contention that recent massive increases in federal 
education funding have not been adequate to allow Ohio to reach the 
goals of NCLB.
    President Bush and Congress have provided historic levels of 
federal education funding to help states implement NCLB. In fact, Title 
I funding received a larger combined increase during the first two 
years of President Bush's presidency than it received in the previous 
eight years combined under President Clinton. The Republican-led 
Congress has also kept special education funding among the highest 
education priorities, and as a result, special education funding has 
more than tripled in just nine years.
    In fact, some reports indicate that the federal government has been 
increasing education spending more quickly than states can spend the 
money, raising new questions about the claims that NCLB is 
``underfunded.'' A recent analysis by the House Education and the 
Workforce Committee shows that by this summer, states will have 
received an average increase of 42% in federal Title I aid for 
disadvantaged students since enactment of No Child Left Behind--and 
these increases are coming even as many states still have not drawn 
down $2 billion in Title I funds that were made available to them as 
far back as fiscal year 2000, three and a half years ago.
    I look forward to hearing more information from all of our 
witnesses about how we can reconcile these figures with the findings of 
the Ohio cost study on No Child Left Behind. I also hope to hear about 
how NCLB is benefiting Ohio's parents, teachers and students. Thank 
you, Mr. Chairman.
                                 ______
                                 
    Chairman Boehner. Mr. Ryan.

 STATEMENT OF HON. TIM RYAN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF OHIO

    Mr. Ryan. Thank you, Mr. Chairman. It's a pleasure to be in 
the great state of Ohio, and I represent the city of Youngstown 
and part of the city of Akron and everywhere in between. So 
everyone here can thank me for Jim Tressel coming to Columbus 
later.
    The issue today, obviously, is the No Child Left Behind 
Act, the funding and the implementation of this program.
    A couple things I would like to touch upon before I get 
into my formal statement. One is the issue of funding and how 
funding wasn't an issue for such a long period of time, and no 
one was really discussing the fact that there wasn't full 
funding with the No Child Left Behind. This Committee made a 
commitment, as the Chairman said, an appropriate commitment, to 
say, some would say, a civil rights issue, and many of us would 
agree with that. Maybe it is a civil rights issue. But when we 
passed the Civil Rights Act in the 1960's, you have to pay for 
poll workers, you have to pay for the voting machines, you have 
to pay to train your workers. There was a cost associated with 
making sure that every citizen in our country had an 
opportunity to exercise their franchise. And that commitment 
needs to be made here, too. So if this is a civil rights issue, 
we need to fund it.
    Another point I would like to make, as well as we have 
these discussions in Washington D.C. on a variety of other 
issues, there's always this 800-pound elephant that's sitting 
in the middle of the room that no one wants to talk about. It's 
the tax cuts that we passed and we want to continue to pass in 
the next Congress. I think we can't talk about priorities, we 
can't talk about full funding the education or veterans without 
addressing what our priorities are going to be as a nation. Are 
they going to be these tax cuts that many would say, and I 
would certainly say, are reckless at this point, or are we 
going to make the proper investments in our education system. I 
think that's the issue that really undergirds the whole debate 
that we're having here today on No Child Left Behind. I do 
believe we must stay the course on No Child Left Behind. We 
must embrace it, while understanding that we have room for 
growth.
    The two areas I would like to emphasize that are needed 
areas for growth are funding and implementation of leadership 
and technical assistance. The need to fully fund the No Child 
Left Behind Act is paramount to its success. Funding is what 
enables our school districts to pay for teacher training and 
technical assistance and professional development, pay for 
salaries of highly qualified teachers, administrative costs, 
implementation costs, intervention costs. All of this costs 
money.
    When Congress took on this task--and I commend them for 
doing so, and I commend the Chairman for taking the leadership 
role in this--they also took on a measure with a hefty price 
tag that would be due to the states to help pay for these 
mandates. Congress knew the costs and now the bills are due. 
What do we say to our fellow states? Sorry, but this payment is 
going to be $7.5 billion short of what we owe you.
    President Bush's budget request, coupled with the 
appropriations bill passed by the Republican Congress, show a 
blatant disregard to keeping the commitments to ensure a high 
quality education system in our country. The Republican 
education spending bill provides only 4.8 percent increase for 
education, the smallest dollar increase in 5 years and the 
smallest percentage increase in 8 years. Less money at a time 
when we have higher expectations. What does this mean? It means 
nearly 5 million needy children won't get the extra academic 
help and services that the law promised if the President's 
budget becomes law. It means over 1 million children will find 
their schoolhouse doors locked to afterschool programs if the 
President's budget becomes law. It means 54,000 teachers won't 
be able to participate in professional development programs if 
the President's budget becomes law.
    What does this mean for Ohio? Which we are going to discuss 
today the study that says the cost of complying with the No 
Child Left Behind will reach 1.447 billion annually, annually 
in fiscal year 2010. I am aware of the many criticisms of this 
report, but I would like to emphasize there may be 
disagreements with whether this report overstates or 
understates the price tag of No Child Left Behind, but the 
common agreement is that we can and we should do more to put 
the resources in place to achieve our end goal, which is 
student success. The need for increased funding cannot be 
underestimated. There were 220 Ohio school districts that had 
issues on the March 2004 ballot, and Ohio voters approved less 
than half, the lowest in the past 10 years.
    I recently heard our Federal reserve chairman, Greenspan, 
say providing rigorous education and ongoing training to all 
members of our society is critical for the economy overall and 
for individuals benefited by its changing nature. He went on to 
say better education, particularly in elementary, middle and 
high schools, would go a long way toward boosting the wages of 
low-skilled workers and diminishing the inequality that has 
become more pronounced over the last 2 years, basically saying 
if we want to close this achievement gap we must make these 
investments in education.
    Chairman Greenspan is 100 percent right. If we do not 
invest more into our education system, we will continue to lose 
ground as a leader in high-skilled, high-wage jobs. The two go 
hand-in-hand. Investment into education is an investment into 
our economy and into the stability of our country. Our children 
deserve better. Thank you, Mr. Chairman.
    Chairman Boehner. I want to thank all my colleagues and 
welcome our witnesses, and let me begin to introduce them.
    Our first witness today will be Ron Tomalis. Mr. Tomalis is 
a counselor to the U.S. Secretary, Department of Education. 
Additionally, he serves as the chief of staff for the 
secretary. Mr. Tomalis served as acting assistant secretary for 
elementary and secondary education. Welcome him this morning.
    Our second witness will be Dr. Richard Ross. He's currently 
the superintendent of Reynoldsburg City Schools here in 
Columbus, suburb of Reynoldsburg, where he has served since 
1988. Pretty long time for a superintendent to stick around. 
Previously he was a superintendent for several other Ohio 
school districts, including Bryant City Schools and Ottawa 
Schools. Dr. Ross has served as an instructor in the Department 
of Education at Bowling Green State University, additionally 
has received various awards including the Pioneer in Education 
Award and the A Plus Breaking the Mold Award. I want to thank 
Mr. Tiberi for inviting you here. Thank you for being here.
    Then we're going to hear from Dr. Howard Fleeter. He is a 
partner at Levin, Driscoll & Fleeter, a research firm that 
focuses on public policy, education finance, and state and 
local tax budgeting issues. He's served at the state and local 
government level since 1990. Additionally, Dr. Fleeter worked 
as an assistant professor at the School of Public Policy and 
Management to Ohio State and he's a four-time recipient of the 
Ohio School of Public Policy and Management Faculty of the Year 
Award.
    Then we're going to hear from Dr. Ted Rebarber. Mr. 
Rebarber is president and founder of Accountability Works, a 
nonprofit research and consulting work. Its mission is to 
assist states and districts in implementing high quality 
accountability systems. Previously he was cofounder and chief 
executive education officer of Advantage Schools, Inc., a 
charter school management company that achieved high grades and 
test scores for disadvantaged students. He served in various 
capacities up on Capitol Hill and the U.S. Department of 
Education and the Vanderbilt Institute for Public Policy 
students. We'd like to thank all of you for coming.
    The Committee rules you have 5 minutes to make your opening 
statement. We're not going to take your head off if you go 
beyond that, but if you get carried away, we'll probably rein 
you in a little.
    Mr. Tomalis, why don't you begin.

  STATEMENT OF RON TOMALIS, COUNSELOR TO THE SECRETARY, U.S. 
            DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Mr. Tomalis. Good morning, Mr. Chairman. Good morning, 
Members of the Committee. It's a pleasure for me to be here in 
Ohio this morning.
    Thank you for this opportunity to testify on behalf of the 
No Child Left Behind Act, President Bush's signature education 
reform legislation that is designed to bring stronger 
accountability and better results to Federal education 
programs, both across the Nation and here in Ohio.
    A lot of myths have sprung up regarding No Child Left 
Behind over the 2 years since it was signed into law. The 
current election season is giving these myths a new currency. 
Perhaps the biggest myth, and one that has become a significant 
issue here in Ohio, is that President Bush and the Congress 
have not provided sufficient funding to pay for the new law.
    The truth is that when Congress passed No Child Left Behind 
it also provided the largest funding increase in history for 
the elementary and secondary programs that would be authorized 
by the new law. The 2002 appropriations act provided an 
increase of $4.6 billion, or 27 percent, for NCLB programs. 
That nationwide increase was nearly matched here in Ohio, which 
received an additional $119 million, or 26 percent, in the 
first year of NCLB funding alone.
    It is also important, though, to point out that this new 
funding comes on the heels of very rapid growth in education 
spending over the past 10 years.
    Combined Federal, state and local spending on elementary 
and secondary education grew from $280 billion in 1993, '94, to 
over $500 billion over this past decade. That's a substantial 
increase over 10 years. To put that in perspective, half a 
trillion dollars a year on K-12 education is 125 billion a year 
more than is spent on defense in our country. That's the way it 
should be. Federal funding for the Elementary and Secondary 
Education Act has more than kept pace with this increase, 
nearly tripling over the same period. In view of these figures, 
a reasonable response to charges of underfunding education 
might be, what might we be talking about.
    The specific figures for NCLB tell a similar story 
nationwide and here in Ohio, building on a large first year 
increase in 2002. Funding for NCLB is up $7 billion, or 40 
percent, in just 3 years. We have provided $1.1 billion to pay 
for the additional assessments that are required by law, and 
the new law more than doubled the funds available to help low-
performing schools by providing nearly $500 million.
    Here in Ohio, Congress has appropriated more than $1.9 
billion. For fiscal year 2004, the $666 million provided to 
Ohio for NCLB programs reflects an increase of $206 million, or 
45 percent, over the 2001 level.
    Consider just one major new requirement, the new 
assessments. Ohio will receive a total of $47 million in 
assessment funding before it even has to implement the new 
tests, which must be in place in the '05-'06 school year. 
Compare this to the previous ESEA reauthorization, which also 
required testing when it was reauthorized in 1994, but there 
was not a penny that was appropriated to put the assessment 
into place.
    This doesn't sound like an unfunded mandate to me. But you 
don't have to take my word on this issue. There are some fair 
and balanced studies that reach the same conclusion. I would 
like to briefly summarize one study in particular for the 
Committee, one that was provided by education officials from 
Massachusetts. I respectfully ask the Chairman to place a copy 
of it in the hearing record.
    Chairman Boehner. Without objection, it's ordered.
    Mr. Tomalis. The authors found that provided funding for No 
Child Left Behind is adequate to pay for the marginal costs of 
meeting the new law requirements at this stage of the 
implementation. They also found that while funding targeted to 
school improvement is short of their estimated need, other 
sources of Federal funds could more than close the gap, if they 
were directed to low-performing schools.
    The authors then looked specifically at the growth in 
Federal education funding. With the permission of the Chairman, 
I would like to read their conclusions into the record.
    ``If this spending increase does not fully cover the fiscal 
gap, it would appear to come pretty close, especially when 
combined with state-level spending increases already required 
under various state laws and court decisions. Given that many 
states have been slow to implement the statewide assessment and 
accountability systems required by NCLB, one might even argue 
that in some instances Federal spending growth has overshot the 
target.''
    The ``overshot the target'' has particular resonance here 
in Ohio, where U.S. Department of Education figures showed 
that, as of last Friday, the state has yet to spend an 
estimated $322 million in Federal education funds appropriated 
from fiscal years 2000 through 2002. It is reasonable to ask 
why some in Ohio are demanding more Federal funds when the 
state has been unable to spend a significant portion of the 
funds that it has already received.
    My testimony suggests that it is long past time to put an 
end to debates about unfunded mandates and return to the 
business of implementing No Child Left Behind. As Secretary 
Paige pointed out recently, critics of No Child Left Behind too 
often ignore the depth of the problem in our schools. I believe 
that has been true to some degree here in Ohio as well.
    I know, for example, many in Ohio are concerned about the 
No Child Left Behind requirement for 100 percent proficiency in 
reading and math, especially since the state was previously 
aiming for 75 percent proficiency. We know the NCLB goal is an 
ambitious one, with only one third of Ohio's fourth-graders 
currently scoring at the proficient or advanced levels in 
reading on the National Assessment of Educational Progress, and 
with just two thirds of fourth-graders currently at grade level 
of Ohio's own reading test.
    If you consider that what we are talking about here is 
bringing all students up to grade level in basic reading and 
math skills, I think it is very hard to make a case for setting 
our goal anywhere below 100 percent. Are Ohio's schools 
successful if they have 25 percent of the graduates, one in 
four graduates, without the basic skills needed for either the 
workplace or for meaningful participation in our democracy? 
President Bush doesn't think so, neither does Secretary Paige 
or the Chairman of this Committee, and I have to say I utterly 
agree with them.
    In conclusion, in my view, the myth of No Child Left Behind 
as an unfunded mandate simply does not stand up to scrutiny. 
Even in an election year. It is a falsehood that diverts 
attention from the admittedly hard work we all face in 
realizing the promise of No Child Left Behind. I hope that by 
helping to dispel this myth, this hearing will refocus our 
attention where it needs to be: on the students of Ohio in 
their classroom. Thank you.
    [The prepared statement of Mr. Tomalis follows:]

 Statement of Ron Tomalis, Counselor to the Secretary, U.S. Department 
                      of Education, Washington, DC
[GRAPHIC] [TIFF OMITTED] 92410.001

[GRAPHIC] [TIFF OMITTED] 92410.002

                                ------                                

    Chairman Boehner. Dr. Ross.


 STATEMENT OF RICHARD ROSS, SUPERINTENDENT, REYNOLDSBURG CITY 
                   SCHOOLS, REYNOLDSBURG, OH

    Dr. Ross. Good morning, Mr. Chairman, Committee Members.
    I'm here today to share with you my support for the No 
Child Left Behind legislation. I'm going to speak as a school 
superintendent of a suburban district here in Franklin County.
    Your Committee is looking into the costs associated with No 
Child Left Behind. I think this is an important question that 
needs to be answered. I do believe, however, there is a more 
important question, and that is, what will it cost America if 
we fail to achieve the goals of No Child Left Behind?
    In my opinion, being an old social studies teacher, No 
Child Left Behind is the most important piece of educational 
legislation since the passage of the Northwest Ordinance of 
1779, which provided land for the establishments of schools in 
the northwest territory here, including Ohio. At that time, 
Congress set an ambitious goal of providing an opportunity for 
an education of every child; in other words, universal access 
to an education.
    Today, with the NCLB legislation, I think Congress is 
giving America a new and more ambitious goal than just 
universal access, it's universal achievement. We've been 
challenged to become accountable for the academic achievement 
of all of our students. It is a guarantee that every child in 
America will have a mastery of basic knowledge and skills that 
are prerequisites for good employment and good citizenship in 
this country and state. And I think to argue that--and I hear 
that argument a lot--that it is not a possible goal, it's an 
impossible goal, is ludicrous, as I believe we can do that.
    What does this mean to our classroom teachers, our school 
principals, superintendent? I believe we're finally being 
required to take notice, not only of those children who are 
failing to learn the basic skills and knowledge sets, but we 
almost must be directing our attention toward the most talented 
students we have to ensure on the other end that their learning 
potential is not limited either. We are required to do that, 
and we are required to make adjustments in our instructional 
programs, and we must do that. We must know what works and what 
doesn't work.
    Many educators that I talk with discuss about not having 
the resources to fill the expectations of No Child Left Behind. 
It's my belief that we must therefore look at what we have and 
pull the weeds from our resource garden that exists in our 
schools. We must eliminate innovations and programs that are 
determined to be unsuccessful. We must marshal our resources in 
the manner that would be most effective in improving our 
students' learning.
    I also believe that the financial resources are not the 
most important ingredient in this task that we have in front of 
us. The most essential prerequisite for success of NCLB is that 
the student, the teacher, the administrator, each and every one 
of them individually believes that it's possible for them to 
achieve that. Countless times I've had expectations when I was 
teaching, coaching, and as principal and as superintendent, 
where we have set expectations in front of our classroom 
teachers, principals, students and athletes to achieve beyond 
what normal people or average people would expect is possible. 
You know what? Kids can do that. They can do that. These people 
must believe that they do have the resources from the garden. 
They have to believe that they have the skills and ability to 
reduce these achievement gaps. Especially with our poor and 
minority students.
    Reynoldsburg--I'm not portraying to be a panacea of 
anything. Just telling you that we're working hard to 
accomplish that. We're a diverse, middle-class, suburban 
community that has the lowest expenditure per pupil in Franklin 
County in fiscal year '03. It would be easy for us to come up 
with a lot of excuses. Easy. We can't because we don't have 
enough resources. We can't because we have a large number of 
poor students and more moving in. We can't because of the 
number of minority students. We can't because of the number of 
our ESL students. I think that is the very point that we're 
here to talk about. We can be successful, and I think we must 
be successful. We must cease using excuses and commit that this 
must occur if this great country is going to provide equal 
opportunity for all our children.
    Now, the very people on my left and right, my question is, 
what does it really cost to implement NCLB? I think it costs us 
to work even harder. It will cost us more time, more 
commitment. It costs more love to be able to absolutely 
guarantee that all our children, every one of them, meets their 
full potential. That is what it costs us.
    Sometimes, in direct terms, this could be extra tutoring, 
summer school. It could be before-school and after-school 
programs. It possibly could be differentiated materials, 
differentiated instructional techniques. There are other costs. 
Will this end up costing us more dollars? Perhaps it will. I 
ask myself and I ask you, what would it cost to assure that 
every child learned in school without this law? My answer would 
be, the cost in money, in effort, in creativity and in 
commitment are exactly the same.
    How can we not want high achievement for all our students? 
How can we not want accountability measures that are consistent 
from school to school, or effective instructional programs that 
have been researched and proven to work with various 
populations? Yes, how can we not want highly qualified 
teachers? If we really want all our students to master basic 
skills and knowledge, then the extra cost of NCLB is zero.
    On the other side of the coin, if we're OK with only some 
of our children learning the standard, and I want to say this 
has been the history of public schools, then we probably can 
actually cut costs and still call ourselves successful. 
Seventy-five percent standard for excellence in Ohio would be 
an example of that.
    Simply stated, NCLB is the right thing to do. I'm grateful 
for the President and the Congress for bringing this necessary 
mandate to our national agenda to debate.
    I would like to close by giving special thanks to our State 
Superintendent Susan Zelman and the Ohio Board of Education for 
establishing an exemplary set of academic content standards in 
reading, language arts, math, science, and social studies. I 
believe these standards provide every teacher, parent, child in 
the state of Ohio clear guidance defining minimum performance 
expectations for each and all of us. We no longer can hide 
behind low standard and, worse, no standards.
    The Congress and the Ohio legislature have given me and 
Ohio new goals. It is now up to the school leaders, 
superintendents, principals, teachers, students to discover and 
create the pathways that will lead each of our students to 
academic success and achievement. I appreciate the opportunity 
to testify today.
    Chairman Boehner. Thank you.
    [The prepared statement of Dr. Ross follows:]

    Statement of Richard A. Ross, Superintendent, Reynoldsburg City 
                       Schools, Reynoldsburg, OH
[GRAPHIC] [TIFF OMITTED] 92410.006

                                ------                                

    Chairman Boehner. Dr. Fleeter.


    STATEMENT OF HOWARD FLEETER, PARTNER, LEVIN, DRISCOLL & 
                     FLEETER, COLUMBUS, OH

    Dr. Fleeter. Thank you, Chairman, Members of the Committee. 
I appreciate the opportunity to testify. I appreciate that you 
picked a location that's probably closer to where I live than 
anybody else in the room.
    We've got a 60-page report that there's been many 
references to. I've got 5 minutes to discuss the pertinent 
facts. I pledge to do the best I can in that timeframe.
    Let me first say for the record that our objective here, as 
Congressman Tiberi said, is to do a study for the state 
Department of Education in compliance with a mandate from the 
Ohio legislature to look at the cost of compliance of No Child 
Left Behind. We did that. And we want to stress that what we 
did was try and figure out what the cost of this law would be 
and what the cost is of Ohio meeting all the mandates and 
complying with it. And we're not making any judgment that says 
that there's--we have a disagreement with the goals. In fact, 
we agree--I agree with what Mr. Tomalis and what Dr. Ross said 
about the goals, and what every one else has said, that these 
are the right goals. That the Federal Government is on the 
track we should have been on for many years to close the gap. I 
think that we can do this and figure out how to get that done. 
Whatever it costs would be money that is well worth spending 
and the best investment I think our country can make.
    In terms of a little background about Ohio's context, 
accountability didn't come to Ohio with No Child Left Behind. 
That Ohio has been rated--the last 2 years in education, 
they're one of eight states to be given A for accountability 
system. There's been state and local and district report cards 
issued for the last 5 years here that--there have been 
statewide proficiency tests for over 10 years that there's a 
good accountability system in place in this state.
    In terms of teacher quality, education, Ohio is one of the 
top ten states in terms of improving teacher quality, and they 
received a B in that area of the report card as well. That's 
the good news about what Ohio's been doing.
    Mr. Tomalis referred to some figures before that in terms 
of the nature of scores and Ohio's percentages of passage rates 
on the proficiency tests. That's the bad news, that 35 percent 
of our students in the 4th and 6th grade failed the reading, 44 
percent failed the math test. That's a challenge that Ohio 
faces in terms of complying with the law.
    The focus that we made in our study was figuring out the 
marginal cost of complying with the law, in terms of what 
additional dollars will it take to go beyond the accountability 
system that the state has had in place. They made the reference 
that Ohio's accountability system, if every district received 
75 percent of their students passing these tests, they would be 
rated an excellent district in this state. You can make a very 
compelling argument that says that having 25 percent of your 
kids fail is too low a standard. In terms of looking at the 
right standard saying eliminating the achievement and having 
100 percent of our kids passing this test, that's the right 
standard.
    In terms of what we had to cost out, there are four areas 
of cost. One of them is the mandatory testing. There is 
criteria for highly qualified teachers and professionals. 
There's increasing the passage rates to a standard of 100 
percent beyond Ohio's current standard of 75 percent, and then 
there's consequences cost. The third one, getting the standard 
up to 100 percent, that's where the bulk of the cost is going 
to be. If you do that, then the consequences cost should go 
away.
    In terms of the focus of our study, looking at the cost of 
compliance, we made a decision which I think is the right one 
from what the legislature asked us to do is what would it take 
for Ohio to comply with the standard. We're not going to cost 
out what the consequence would be of failure because we want to 
cost out the consequence of success.
    How do we do this? The main focus of our report was looking 
at what it would take to get 100 percent of our students 
passing Ohio statewide proficiency tests. For that, as Dr. Ross 
said, is a variety of different types of interventions that can 
be done. There are aspects that don't have to do with 
interventions that have to do with getting everybody on the 
same page of the playbook. I have 14 years of experience in 
working with this state on education funding. We have a list in 
our report that has nine or ten interventions. We didn't pull 
that out of thin air. We worked with personnel and staff from 
the Ohio Department of Education. We had focus groups within 
the district. We worked closely with the city of Columbus 
Public Schools. And I thank them for their participation. We 
drew that list that we have as based on those data and also 
based on research and education about what types of programs 
are effective in terms of getting students up to speed and 
learning. The 3 years that we picked that are the 1.5 billion 
roughly in our cost, 1.4 billion of that is in the area of the 
interventions that are necessary to get students up to 100 
percent proficiency. That's where the bulk of my comments will 
be because that's where the bulk of the cost is.
    The three intervention programs that we costed out, we have 
a series of tables through our report. The key table is table 
23. It shows that we have summer school, which is consistent 
with the extended school year idea; after-school intervention, 
consistent with the idea of extending the school day before 
school or after school; and intensive in-school intervention.
    Each one of those interventions is based on research for 
the summer school program. I would direct people to the Johns 
Hopkins Center for Summer Learning. They've been doing research 
for many, many years looking at the learning loss that occurs 
over the summer, particularly for lower social economic groups. 
If you test them at the end of the school year and beginning of 
the next one and compare where they're at, they're going down, 
while the other groups are going--holding steady or going up. 
That's a major problem. The intensive in-school intervention. 
It's on the U.S. Department of Education's own web site they 
have an Institute for Education Sciences that identifies 
educational practices supported by evidence. They can cite that 
one-on-one tutoring by qualified teachers for grades 1 to 3 is 
one of the gold standard intervention approaches, and that 
that's something that may be incorporated into our report very 
consistent with that. In fact, we base what Columbus does on 
the reading recovery model, which is one of the most well 
supported intervention programs in education that I know of.
    Finally, the after-school interventions is based simply on 
the idea of the supplemental services which is one of the 
consequences that's spelled out by No Child Left Behind. Our 
logic in including that is if that was a program which the 
authors of No Child Left Behind felt would be an appropriate 
consequence for schools and districts that are failing, then I 
think it would be an appropriate intervention so you can head 
that off before they fail. So we have a basis for including 
those three programs.
    We also have a rationale in terms of it's one thing to 
include them and you've got to attach some costs. If you don't 
have a good rationale for that, you don't have a good cost 
estimate. Our rationale for how we costed out the programs is 
based on two fundamental economic assumptions. The first is the 
premise of increasing marginal cost. This is the most 
fundamental assumption in microeconomic theory. As you produce 
increased units of output, each unit of output is going to cost 
a little bit more, require a little bit more input. That's a 
fundamental pinprick of microeconomics. It's one that no one 
has disagreed with. I think the table that we have that shows 
the differences in the backgrounds of students as we broke them 
into their performance groups and you can see very clear 
patterns that the students that are highest achieving have the 
lowest percentage of economic disadvantagement, the lowest 
percentage of special education, the lowest percentage of 
English as a second language, and that you can see very clear 
patterns as you go down the performance scale that each one of 
those challenges increases, and for the lowest couple of groups 
of students we have they increase to a dramatic rate.
    So that's our evidence that the challenge of this, the cost 
of getting the last student to clear the bar is going to become 
the highest and the cost of getting the student that's closest 
right now to clearing the bar is going to be the lowest.
    The second premise that we used when we estimated the cost 
was the idea it's almost what I called the Fram oil filter for 
Ohio, the pay me now, pay me later. The idea would be that the 
earlier you intervene, the more effective it would be, and the 
more cost effective it would be as well. That's the idea behind 
these one-on-one interventions and the reading recovery types 
of programs. The earlier you start, the more effective you are.
    And in our cost estimate, the $1.4 billion that we came up 
with, that if you look at how that's structured, that the cost 
for kindergarten and first grade is the highest, the cost for 
second and third grade goes down from that, and the cost in the 
out years after that of what we call sort of maintenance, once 
you get kids on track--it's not an inoculation. You still need 
to be doing work, but that's going to be a declining rate. That 
that 1.4 billion you have is an annual cost. That's the cost--
if you look at it in two ways, it would be either the cost of 
taking the student right now who's in kindergarten and serving 
all those students who need the interventions over the course 
of their 13 years that they're going to be in school, or you 
could alternately think of that as the cost once this is up and 
running, you'll have interventions for kids at all different 
grade levels at any different times. You'll have some kids in 
kindergarten getting interventions, second, third, fourth, 
eight. So that cost is a cumulative cost for either serving the 
group of students throughout the duration of their time in 
school or it would be the cross-section of students at all the 
grades in any given year. I've seen some people take the number 
and divided it by the 130,000 students that we say need 
intervention and they get a figure that's almost $11,000, and 
that's an inappropriate way to think of it like that. The cost 
estimate applies to more than just the group of kids in K 
through third grade.
    Finally, in terms of--there's more detail about how we did 
the estimate. The last thing would be the cost that we attach 
once we define the programs and how they work, and they're 
consistent with those ideas of increasing marginal costs and 
the earlier intervention being more effective than the later 
intervention. We then had to attach some cost estimates. We 
tried to be very conservative in how we attached those costs. 
One person commenting on our report said he thought we so 
severely underestimated the cost of what a teacher would be, 
that they thought that it made our estimate invalid. If it's 
invalid, it would be on the low side, not on the high side.
    Lastly, I guess what I'd like to say, there's been 
discussion about the increases in Federal money, and I want to 
clarify that we're not disputing that there have been increases 
in Federal money. We see those. And that the two points I would 
like to make in that regard would be, first, that these 
percentage increases that Mr. Boehner talked about and Mr. 
Tomalis talked about, they're on a fairly low base. 
Historically, Federal funding has fluctuated between five and 7 
percent of total education resources in the state of Ohio. So 
we made significant increases in what's the smallest component 
of the funding. We're not saying that we don't appreciate those 
increases. We're not saying that those increases aren't going 
to make a difference. I think there's a mathematical issue that 
the bar has been raised appropriately so by the Federal 
Government. I think now we're going to need to get to a point 
where five or 7 percent of the share of education that may have 
worked when our standard was 75 percent, that's not going to 
work when our standard is really 100 percent.
    The last point I would like to make about that. There have 
been some suggestions that we shouldn't be looking at the 
increases, what we ought to be talking about is the whole pot 
of money that's there. And that's a view that we disagree with. 
Our premise is that the money that has been there in the past 
has been part of the system which has gotten us to the point 
where we have 35 percent of our kids not passing reading and 34 
percent not passing math. We're taking the premise that the 
money that's in the system has gotten us to where we are. And 
there have been allegations that we haven't taken into account 
any efficiency. We did do that on our report. There's a whole 
report--I'm just about done. I appreciate your indulgence. I'm 
talking as fast as I can. That we did make assumptions that 
there are ways to reach that money. I think that we're at the 
point where if someone can demonstrate that beyond where we are 
right now, if that were to lower the cost, I think if anybody 
can convince me the cost is going to be lower, I'm in favor to 
that because it's going to suggest to me that we're closer to 
getting in compliance with this law. Thank you very much.
    [The prepared statement of Dr. Fleeter follows:]

  Statement of Howard Fleeter, Levin, Driscoll & Fleeter, Columbus, OH
[GRAPHIC] [TIFF OMITTED] 92410.003

[GRAPHIC] [TIFF OMITTED] 92410.004

[GRAPHIC] [TIFF OMITTED] 92410.005

                                ------                                

    Chairman Boehner. Mr. Rebarber.

STATEMENT OF THEODOR REBARBER, PRESIDENT, ACCOUNTABILITY WORKS, 
                         WASHINGTON, DC

    Mr. Rebarber. Thank you, Mr. Chairman, Members of the 
Committee, for this opportunity to address you on this vital 
topic of national significance.
    The reform challenge set out in the No Child Left Behind is 
not going to be easy to attain. It's going to be a challenge. 
But it's the right goal at this time. I think there's consensus 
among everybody on this panel that it is the right goal. Given 
that, the concentration and concern that many of you and all of 
us occurred among states and at the local level raised 
questions. But in my mind it's understandable that when we make 
that level of change in the goals, when we're saying for the 
first time that we're going to educate all of our students as 
opposed to just some of our students, that there will be some 
change and there will be an impact.
    The other major change in No Child Left Behind we had 
before is the imposition of some significant accountability for 
lack of success. Accountability, in our view, contains three 
components: One is clear goals that are measurable; second is a 
way of assessing progress and measuring whether we've attained 
those goals; and, third, which we really have not had 
historically, is interventions, sanctions in the cases where we 
don't have success. Those interventions should be carefully 
designed so that they help students. They can't just punish 
students. But at the same time, there have to be some 
interventions in those cases where we have persistent failure 
and lack of success educating all our children. We haven't had 
that before in many cases. Certainly not in the No Child or 
Improving America's Schools Act, until No Child created some 
significant interventions in the form of public school choice, 
supplemental services and some other kinds of interventions 
that are based on even more persistent failure. So it's 
understandable that people are concerned, that people are 
somewhat fearful of the impact of what this is going to mean. 
And it's understandable that funding, which is a legitimate 
question, is on the table. We think there ought to be careful 
analysis. We think that this is a legitimate issue to debate.
    To the credit of the Ohio state superintendent Susan 
Zelman, in addition to the main study that Driscoll & Fleeter 
conducted, they had ten nationally recognized groups or 
individuals review that study. And it's interesting to see the 
discrepancies between the reviewers. As Dr. Zelman pointed out, 
several of the reviewers felt that the study was 
underestimating cost, several reviewers felt that it was right 
about the cost, and several reviewers felt that it was 
overestimating the cost. So trying to come up with a rigorous 
analysis of the cost is also a difficult challenge.
    Now, given that, our organization was one of those that 
reviewed the initial Ohio study. We've also reviewed cost 
analysis of No Child Left Behind in other states, these kinds 
of analysis states have been conducting for some time. We find 
a couple of consistent flaws in many of these studies. And I 
regret to stay in the Ohio study. One of them is the 
assumption--and there is an assumption in the Ohio report that 
significant improvements cannot be attained through 
efficiencies and reallocation of resources. I could find the 
quote saying that. There was an assumption that some 
improvements could continue just based on trends. The major 
improvements as a result of reallocation of resources, 
restructuring the current system is assumed to not be possible. 
There's very little evidence--there's no research provided to 
support that. We think there's a wealth of evidence on the 
other side suggesting that we can show significant improvements 
in what we're doing today and what we're spending today. We're 
not against increasing education funding. We know that the 
Federal Government has increased education funding, as have 
states and communities. The bulk of the increases over the last 
10 years has come from states and local communities even though 
the Federal Government has also increased its share. We expect 
those increases to continue. We've done our own analysis in 
addition to reviewing the Ohio study and we projected just 
historical increases in education funding going forward for the 
life of No Child Left Behind both Federal, state and local.
    We found that for the specific requirements of No Child 
Left Behind the additional testing, the Ohio qualified teacher 
requirements, the initial data base tasks that need to be done, 
that the increases in Federal funding are sufficient to pay for 
those specific requirements. On the other hand, what some of 
the other studies have done, including the Ohio study, is say 
that now because the Federal Government has worked with states 
to set these goals for general achievement, educate all 
students to minimal levels in reading and math, that now the 
bulk of the responsibility for funding education, particularly 
any new funding, now falls to the Federal Government. One could 
question the legitimacy of changing that historical role of the 
Federal Government from a support to a main funding of 
education. But even putting that aside, when we look at the 
studies, we find very little in the way of actual evidence to 
suggest that more funding for general education is truly 
necessary beyond the regular increases that have occurred and 
will continue to occur beyond inflation. The evidence is just 
not provided. It's usually assertions. For example, not to pick 
on the Ohio study, but I'm afraid that's the example here that 
we've been talking about, but anyway, the Ohio study, for 
example, the references to research to the Hopkins Center, to 
the Federal Department of Education's listing of programs, that 
wasn't present in the actual study, but even if that had been, 
there was no analysis between different kinds of interventions 
to determine which ones are the most cost effective. If we're 
going to be prudent with taxpayer's dollars, we would expect 
that a rigorous and compelling case for new funding would do 
several things. First of all, it would look at how are we 
spending money today. Is there evidence that that money could 
be reallocated, reformed and we could get substantially better 
achievement. And then if it demonstrated that the evidence 
suggests that we cannot, then it would look at what are the 
different types of interventions that we could add, which ones 
are the most cost effective and get you the best results for 
the most kids, the most limited amount of dollars. That wasn't 
done. And it hasn't been done in any of these studies. So these 
are significant problems.
    Now, in our study, after we looked at the specific 
mandates, we looked at a general achievement group. And I just 
want to give you a limited number of examples of evidence we 
found that we could be improving academic achievement by 
reallocating our current dollars. There are many examples. 
First, our country is subsidizing preservice education for 
teachers through all grades. States are funding that. There's 
grants to support the student portion of those fees, et cetera. 
There's public dollars being spent. The research indicates, and 
I can give you a particular citation, find that the 
effectiveness of teachers with elementary certification, a 
critical foundation that all students need, their effectiveness 
is no greater in raising student achievement today than 
teachers, other teachers who are on emergency certification and 
who have not completed all the subsidized education courses and 
so forth. That is not to say we don't have many very talented, 
dedicated hard working elementary teachers. But the 
certification and training they receive is of limited value.
    If you ask most teachers when they walk into the classroom 
after coming out of your average preservice elementary program, 
do you feel you're well prepared for that first day in the 
classroom, for that first year, very few teachers support the 
idea that they were. In fact, there have been many studies to 
show that they think they have not.
    To give you a specific reason why, and I'll be wrapping 
this up, the American Federation of Teachers has cited the 
difference between the reading research on what works on 
training, on materials, on all kinds of other things that we're 
currently spending quite a bit of money on today and what 
actually will work.
    In closing, the challenge of our teachers, our principals, 
someone who's worked at many levels in the system, that is a 
very substantial challenge, working very hard, the hardest 
thing I've had to do is actually step in and be a principal for 
a limited period of time in an inner-city functional school 
with difficult behavior, with low morale, it's tough work. But 
also someone who attended an inner-city school myself, who came 
into this country not speaking a word of English and with many 
classmates in that school who did not have the educational 
opportunities I was lucky enough to have, I think it's just 
unacceptable that we not succeed. It's unacceptable that we 
decide that huge amounts of funding are not necessary. And then 
when those funding, that unrealistic funding is not provided, 
that it's defensible that we've not succeeded with all 
children. Thank you.
    [The prepared statement of Mr. Rebarber follows:]

Statement of Ted Rebarber, President, Accountability Works, Washington, 
                                   DC
[GRAPHIC] [TIFF OMITTED] 92410.007

[GRAPHIC] [TIFF OMITTED] 92410.008

[GRAPHIC] [TIFF OMITTED] 92410.009

[GRAPHIC] [TIFF OMITTED] 92410.010

                                ------                                

    Chairman Boehner. We thank all the witnesses for your 
testimony today. And let me agree with part of Mr. Rebarber's 
opening statement that none of us ever thought this was going 
to be easy. Nowhere in our 200-year history have we ever 
attempted to educate all of our children. We made a lot of 
nice, happy talk about it, but we've never attempted to do it. 
And we knew when we passed this act that we were challenging 
the status quo in a way in education that had never occurred 
before. And we know that our teachers, our schools, by and 
large, are doing a very good job.
    And I have to say it's difficult from where I sit as a 
public policymaker to ask that more be done. But as I'm fond of 
saying, it's not that poor minority child's fault that they may 
have lost the lucky lottery in terms of who their parents were 
or what neighborhood they grew up in or what school they may 
have been assigned to. Every child in America deserves to have 
a chance at a good education. My colleagues have heard me talk 
about my eleven brothers and sisters, and the fact that if it 
weren't for my parents, you know, all of us may not have gotten 
a decent education. But for those children who may not have 
parents around, may not have parents engaged--we know that if 
they are, there's a pretty good chance that the kids will do 
well, but it's not that child's fault if their parents aren't 
engaged. We, as a society, have to figure out how do we help 
that child get an education.
    Now, when I say this is hard, we know it's hard because in 
1994 Congress passed most of what is being blamed on No Child 
Left Behind. We required all states to have standards in their 
subjects. We required all states to develop assessments. And we 
failed. We failed miserably. Why? Because most states decided 
they just weren't going to do it. And in January of 2001, when 
the Bush administration took office, exactly 11 states were in 
compliance with the 1994 act. Why? Because all of them got 
waivers. Because it was too hard. We don't do it this way. And 
I bring this up--one, we know it's hard. Two, you need to 
understand the ground we've been covering over the last decade 
that got us to where we got to. And today all 50 states, the 
District of Columbia and Puerto Rico, are all in compliance 
with the law.
    And I guess I want to begin with Dr. Fleeter. I want to get 
to the essence of the issue. I can take issue--I have taken 
issue with some of the assumptions used in your report. But 
there's one big issue here that we keep circling around and not 
really getting down to the basis of it. But Ohio, apparently by 
law, regulation, statute or something, decided that proficiency 
of 75 percent of Ohio's school-age children was the goal. Is 
that by statute? Is that by regulation.
    Dr. Fleeter. I think it's by both. It came from--there's a 
series of recommendations by the state Board of Education in 
terms of implementing the accountability system, as far as once 
the assessments were in place, what are the correct standards.
    Chairman Boehner. So in your report, as I heard you say, 
1.4 billion of the $1.5 billion cost eventually would be 
attributed to moving the goal from 75 percent proficiency of 
Ohio's school-age children to 100 percent.
    Dr. Fleeter. Yes, that's correct.
    Chairman Boehner. Now, how many of us think that we ought 
to throw 25 percent of our kids overboard.
    Dr. Fleeter. I'm hoping none.
    Chairman Boehner. It won't be my kids. It won't be 
anybody's kids in here. There will be some poor child somewhere 
in the state who is just never going to get an education. 
They're going to move from one grade to the next whether 
they've learned anything or not. They'll get a diploma from 
high school whether they learned anything or not. And we're 
going to do what we've been doing for the last 30, 40 years. I 
guess if you want to call that a mandate, I'm for it.
    I have referred to my good friend Ms. McCollum in her 
opening statement. She sounded like me. She sounded like this 
rock conservative Republican giving the speech in the Education 
Committee about 10 years ago, about Federal control of 
education, mandates. Trust me. I'm dead serious.
    Ms. McCollum. My mother is a Republican, so--
    Chairman Boehner. I have to tell you, I was one who voted 
to get rid of the Federal Department of Education, divide it to 
the states and get it out of the way. I have to tell you all, 
I'm a happy convert to where we are. Because without Federal 
intervention, Ohio may have stepped up to the plate because it 
had an accountability system, but there are a lot of other 
states that would never have stepped up to the--stepped up to 
help the kids in their state. And after spending $300 billion 
over 37 years, it's time, I think, from the Federal Government, 
that we expect some results for the money that we continue to 
invest.
    Now, Mr. Ross--Dr. Ross, based on my conversations with 
educators from one end of the country to the other, I can 
imagine that you're not the--you're not the poster child for 
superintendents. You probably are. You might be the black sheep 
in the family. What do you hear from your fellow colleagues in 
the education business about No Child Left Behind? What do you 
think the real issue is, I guess is what I'm boiling this down 
to.
    Dr. Ross. I hear a lot of things from my colleagues across 
the state. No, I don't represent the superintendents of this 
state.I speak only for myself. I think I go back to my 
comments. I think that there's a belief structure among our 
superintendents, teachers and principals that they really can't 
get this done. There's not enough belief in themselves that 
they have the skills and ability to do that. I think that's why 
that's so important, because I think, as we set these 
expectations and you talk about the cost differential and the 
75 percent in Ohio, I happen to believe just by raising the 
expectation for kids with the new content standards in Ohio, 
that the performance is going to go up if we get the kids, 
teachers, principals, superintendents to believe that. It's a 
believability issue that they do have the skills and ability to 
do that. I believe strongly in our teachers and principals 
being able to accomplish that with our parents and students. 
I'm amazed when teachers have low expectations for the children 
and maybe the children themselves.
    Chairman Boehner. Ms. McCollum.
    Ms. McCollum. Thank you.
    Dr. Ross, I listened to the local news this morning. Did 
you have a shortage in your school district of aides available 
to help in administering--those who had second language, in 
administering the tests that started this week.
    Dr. Ross. We have 57 different languages spoken in our 
school district. I do believe we have them covered to the 
extent that they're IEPs.
    Ms. McCollum. For the tests being taken today, you have 
enough interpreters.
    Dr. Ross. That is correct.
    Ms. McCollum. Mr. Tomalis, you talk about the 4.6 billion 
that's being spent in education. That's for this year.
    Mr. Tomalis. The increase.
    Ms. McCollum. Yeah.
    Mr. Tomalis. Yeah.
    Ms. McCollum. And we're spending $4 billion a month in 
Iraq. You were making the comment we were spending as much on 
education as we are in defense.
    Mr. Tomalis. No, I wasn't. I was saying--
    Ms. McCollum. I thought you might want to clear that up for 
the record.
    Mr. Tomalis. What I said is that we spend in this nation in 
K-12 education approximately $501 billion a year, which is 125 
billion a year more than we spend on defense.
    Ms. McCollum. Well, you might want to check with Secretary 
Rumsfeld on that.
    When you talk about bringing all students up to grade 
level, we had a hearing last week in Washington in which I kept 
hearing how flexible this law was. It was so flexible. There 
weren't going to be any problems with it. We didn't need to 
waive anything. It's my understanding from the discussion that 
took place that the department is now looking at how it 
assesses those individual students that have extreme special 
needs.
    Mr. Tomalis. We promulgated new regulations back in 
December that addressed this issue. Those children I saw 
actually on the news this morning that there was a report that 
educators in Ohio are upset that children with the most 
severely cognitive disabilities are going to have to be tested 
at grade level. That's not the fact.
    Ms. McCollum. It's not the fact now that it's been changed 
by the rule.
    Mr. Tomalis. It wasn't the fact with the passage of the law 
as well.
    Ms. McCollum. There were a lot of people who didn't read it 
that way. English as a second language. I have the expectation 
that the child with English as a second language, 1 year 
there's an intervention in the test and the next year we're 
fine.
    Mr. Tomalis. What the law allows, ma'am, is that the 
English as a second language child can be tested in their 
native tongue for up to 3 years on a group basis. For 3 years 
it can. On an individual basis for two additional years. So 
that's 5 years that a child could be tested in its native 
tongue.
    What the department with the secretary announced within the 
past month is a way of treating these children when they first 
come in, those who are in the school district for less than a 
year. One of the safeguards about No Child Left Behind--
    Ms. McCollum. The reason why I'm asking you to bring this 
up is this is precisely what a lot of us were talking about 
when the law was implemented. I have my transcript from the 
amendment that I offered in which I was trying to eliminate for 
those states like Minnesota that had spent millions and 
millions of dollars just recently implementing tests, 
identifying the needs for the students and targeting those 
needs that we not have enough layer of tests which are 
unfunded.
    And I'll go with my state auditor's numbers, because as far 
as I know, the Federal Government has not released its report 
with the total cost of implementing the No Child Left Behind. 
We knew that there were going to be challenges as this law went 
forward. And there are challenges as the law is going forward. 
I don't think the Department of Education, in my opinion, has 
been very supportive of those of us, whether we're parents, 
teachers, administrators, elected officials at the state and 
local level, bringing those to your attention. Somehow or 
another we are being made to feel by comments directed toward 
teachers just recently that somehow we are against all children 
being educated. So I'm glad to hear your tone. I appreciate 
what you're saying. But I do have some concerns.
    I'm just going to put this out and whoever wants to respond 
can. One of the most important issues as determining how 
successful a child's going to be in education are their 
parents. The Chairman just mentioned that. Whether you're poor, 
whether you're rich, the way your parent is involved in your 
life makes a difference. So if we have a child that's not 
succeeding, as the Chairman points out, it's going to be up to 
the school somehow to all of a sudden develop all that 
nurturing for that child while they're in the classroom. And do 
we honestly talk about the cost of providing summer school, 
after-school enrichment, one-on-one tutoring, and target the 
money toward the child and measure how the child's performing, 
increasing their ability to learn and to meet grade standard. 
Or are we going to do what we're doing right now, which the 
Chairman talks about doing, which is not talking and lumping 
everyone in a group.
    So how important is it for our country to really invest in 
the total education of that child's social capital, education, 
parents having ability to raise their education level, health 
care, permanent housing? How important is that? And the 
superintendent's smiling because you deal with these issues all 
the time. How important is that? And do we need to address that 
as well as the other issues we're talking about in the 
President's law No Child Left Behind, if we're not really going 
to leave them behind at all.
    Dr. Ross. Again, let me speak just for Reynoldsburg and 
Dick Ross. We've been focusing on student improvement in 
Reynoldsburg for quite a few years. It was four or 5 years ago 
when we were doing our staffing awards in our school district 
in allocating resources and where they would be most important 
to go, the building principal who advocated she wanted a social 
worker more than a classroom teacher because she wanted to deal 
with some of those issues you talked about. Subsequently to 
that we've had principals under the system that we do have 
social workers now in each of our buildings for that purpose.
    Part of it is an engagement process for parents also. So I 
think sometimes in the past, as educators, they'll send them to 
us and we'll take care of it. We have to engage parents. We 
have to set up expectations for our parents also about what we 
need to accomplish. That's why the communication standards and 
economic indications for our children need to happen at an 
early age and communication has to occur with the parents. We 
feel that the movement with some of the help from the social 
workers identifying problem areas and trying to eliminate those 
have been beneficial for us as part of our individual unit. 
It's one of the things we can do.
    Mr. Tomalis. A couple months ago I had the very high honor 
and privilege of traveling to St. Louis to an elementary 
school. That school about four or 5 years ago wasn't doing too 
good. It's in a very poor neighborhood, overwhelming majority 
of children are African-American or Hispanic. Overwhelmingly 
they are poverty children, disadvantaged children on free and 
reduced lunches. They had a grade level in the elementary 
school with about 15 percent of their children were on grade 
level.
    Within 4 years, that school had 80 percent of its children 
at grade level. They didn't build a new building. They didn't 
get a new grant. They didn't increase per pupil expenditures 
out the wazoo. They did one thing: They changed the principal. 
They changed the principal. They brought in a principal whose 
mantra, she told me--very short, petite woman with a lot of 
energy--was that all children could learn, she believed. And 
that psyche, that mentality permeated down throughout her 
faculty.
    Now, the children were more difficult to teach. No doubt. 
Because of the circumstances and their environment that they 
came from. So they instituted certain things. They reached out 
to the community a little bit more. They got the parents more 
engaged. Which is what the Title I funds and other funding is 
there to help do as well. But it was the leadership that played 
the most important role. It wasn't the amount of money they 
were spending. It was that woman who changed the lives of all 
the children in that school.
    Mr. Rebarber. I think the challenge that the congressman 
just pointed out is real, that there are special challenges 
with some students because of the background. And our 
educational system unfortunately has not on the whole been 
designed to succeed with those students that have those 
difficult background. But there are things the educational 
system can do to succeed with the great majority of those 
students despite those challenges. I'll just give you a few 
examples.
    The point, the belief that all children can learn is 
important. Then we have to get to what are specific things we 
can do differently to improve these kids. I'll give you a 
couple examples.
    One, the reading example I gave before. Using a wide range 
of reading methods, not just those that are consistently 
supported by research, means that you're more dependent on 
parents sitting there with the children, helping them at home 
with reading, all of those kinds of things that parents can do 
and many do do, including many minority parents. Many parents 
don't have the time, their life is less stable, add some of the 
challenges that you pointed out. So using effective methods 
that are designed to work without the support or with only a 
limited amount of support at home is only part of it.
    Just another example. Many of these kids require special 
instruction which doesn't have to be done just for these kids. 
It can be done in the context of school. On how to behave in 
school, how to--on all kinds of things. Their life at home is 
not often sufficiently stable, time for homework. The kind of 
homework that's often designed in schools requires parents to 
spend hours helping their kids do their homework assignments. 
It's not true in the best schools. It's not true by the best 
teachers. There's a whole range of practices in our school 
systems today that are designed to leave a very substantial 
responsibility for the parents. Unfortunately, the situation we 
have today in our society does not permit that anymore. So the 
schools have to change the practices to take responsibility for 
educating all kinds regardless of background. And based on my 
experience, what I've seen, I'm confident that there are ways 
it can be. It's not easy. But there are changes that can be 
made.
    Dr. Fleeter. We all would like to respond to your question. 
It is a good question. It's important. I would like to point 
out in our study that there's a category under our intervention 
what we call academic coordination that I think would be most 
consistent with what you articulated in terms of working to 
make sure everybody is on the same page of the playbook and 
they understand that. I think there would be some tradeoffs. I 
think our costs for those services were $100 billion.
    There could be some tradeoffs there if you're doing other 
things that are beyond that. If you're doing something that's 
changing the initial conditions that are truly when the kids 
are at school, then it's going to--it's an extension of that 
same argument. You can do more things earlier. You can do more 
things outside the classroom. It's going to mean what you do 
inside the school building is going to be less.
    Ms. McCollum. I couldn't do this. You were--
    Chairman Boehner. In the rest room.
    Ms. McCollum. Yeah. But I wanted to submit to the Committee 
a letter here from the Ohio Education Association. And a copy 
of the editorial from one of my local papers in Minnesota which 
reinforces that we want to amend it, not end it, the Leave No 
Child Behind.
    Chairman Boehner. Without objection, the documents will be 
made part of the record.
    The Chair recognizes Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman.
    Just to expand upon something you said earlier. One of the 
things that I think No Child Left Behind has done is raise the 
debate in education about what kids can and can't do. And 
having said it earlier, I'll say it again, living in a family 
where English wasn't the first language growing up and going 
into an elementary school at grade 6 where my mom didn't speak 
very good English because she had only been here for 7 years, 
and my dad immigrated as well, thank God for them that I'm here 
today because they pounded into me the importance of a quality 
education. I was lucky to not only have good parents; I had 
great teachers.
    As some of the audience knows, many teachers that I know 
were concerned about the proficiency tests. I ran against the 
father of a proficiency test when I came to Congress. But I 
understood a little bit about why that happened. I wasn't in 
the legislature when the proficiency test was passed.
    What I did see when I was going to school in Columbus--and 
I graduated, Mr. Chairman, in a middle class to lower income 
school, about 40, 45 percent African-American, most remaining 
white--were that there were kids, both black and white, that 
were socially promoted, that, quite honestly, couldn't read and 
write. I was fortunate enough to have parents and some quality 
teachers who pounded into me the importance of getting ahead. 
And I sensed some of that in visiting Reynoldsburg.
    Dr. Ross, knowing teachers and knowing principals in your 
school and having been in your school--you touched on earlier 
the expectation that every child has the ability to learn. How, 
post No Child Left Behind--we're 2 years into it. How is the 
debate--and I would argue the debate has actually made public 
schools better in Ohio, and my sense is that more children are 
learning. How do you see it affecting the attitude in the 
Reynoldsburg City Schools.
    Dr. Ross. I think in Reynoldsburg and across the country, 
state--it's raging there also. But I think one--if I had a 
suggestion for the Committee on an adjustment of No Child Left 
Behind, because I think it's the most important component, and 
a lot of credit goes to the people sitting in the audience, and 
some of Bill Sanders work, I think that the issue should be 
instead of looking at comparisons at growth from year to year, 
grade level to grade level, maybe do that, but in addition 
target individual students. Seems to me to be what I'm talking 
about. I think what we have to have is a classroom teacher, a 
principal that knows Johnny is going to grow a year, and if 
they don't grow a year they're going to be intervening quickly. 
I think the debate's going in Reynoldsburg, but I think the 
issue is that teachers want kids to succeed. You think that if 
we can give them the resources and the leadership at the 
building level to achieve that, once they experience success, 
it's contagious. We can do this. I think some of that's 
happened in our district. I think we have some history to show 
that.
    Chairman Boehner. If the gentleman would yield.
    Mr. Tiberi. I will yield to the Chairman.
    Chairman Boehner. Clearly allows that type of measurement 
for adequate yearly progress. It's just that most assessment 
systems, as they've been set up, find it difficult to track 
those students to do that measurement. But I know that there's 
discussion here in Ohio and in other states moving to an 
assessment system similar to that, which I do think would be a 
more accurate reflection of how well the school's doing and how 
well the students are doing.
    Dr. Ross. Mr. Chairman, if I could just comment on that. I 
think that it is--it needs to be personal between the teacher, 
the principal, and the child. This is my child in my classroom 
and I'm going to make sure that he or she learns this and gets 
back to grade level. When it's made that personal--if it's more 
nebulous, it's hidden within grade level, I think it's harder 
for them to do that. I think the teacher will respond.
    Mr. Rebarber. I want to enforce the idea that we should 
look at the gains for individual students and value that. At 
the same time, I think it's important to note that, first, the 
No Child Left Behind law moves us in that direction in that 
many states do not have grade-by-grade testing which is 
necessary to do that. Many states know it's not required in the 
law. The bill is subsequently beyond what's in the law and 
planned to add that kind of value added or other kinds of 
assessment as their capacity is put in place. I think No Child 
is moving us forward in some ways on that. I think the only 
caution I would have on that kind of system is that under that 
system the common way to judge success is one child made 1 
year's worth of progress. And the reality is, for all too many 
children, they are far behind where they need to be. We cannot 
give up. We cannot say because you are 2 years behind, you will 
always stay 2 years behind. There is plenty of evidence quite 
apart from one-on-one tutoring that there are cost-effective 
ways to accelerate those students to get them on grade level. 
If we do it in that direction, I think the targets have to be 
ambitious enough that we catch up most of these kids.
    Mr. Tiberi. Thank you.
    Dr. Fleeter, you mentioned pointing out costs on the 
Driscoll & Fleeter eleven report. Inside joke. Let me point a 
couple out and get your responses to them.
    Your model that you use is based on a study with respect to 
special education, the concept that it would cost more 
depending on the child's need. Let me challenge that a little 
bit in terms of how you can determine what the cost is. On the 
surface it sounds completely right. I spent a day in one of my 
school systems talking to special education teachers and 
administrators and going into the classroom and hearing from 
them about the massive differences between different types of 
children.
    I'll give you two examples. One child was on a ventilator, 
laying flat on his back, and will for the rest of his life. 
Another child was a special education child, and they had just 
found that one of the problems that she had was going to be 
corrected because it was a vision problem. And so the cost 
estimate for the one child wasn't going to go on as long as at 
least they thought, while the other one will continue to go on. 
Obviously, you have everything in between. How does your cost 
model associate true cost.
    Dr. Fleeter. The only way that you can deal with issues 
like that--what you're saying, every kid is different. And so 
the way we approached that in our report was we looked at the--
we got all the data on individual performance in grade four and 
grade six on reading and math from the Ohio Department of 
Education, on a student-by-student basis, without any 
identifiers so that we're not violating any privacy concerns, 
because we have all the data with the characteristics of these 
children and their performance. And we broke--the first thing 
you do is separate the kids who passed into a different pot and 
the kids who failed. We looked at the kids who did not pass the 
test and broke them into core tiles. You could break them into 
decimals or however finally you want to grade it. You could 
separate them into performance groups. We did it based on core 
tiles. The table that I referred to was the one that showed if 
you look at the characteristics of those students by their 
performance, you see the very clear pattern that--I think for 
the core tile one, that was the lowest. From the group of 
failing students, about 90 percent of those kids had--they were 
either economically disadvantaged or special education or 
limited English proficient or combination of those. And if you 
look at the highest performing group of students, it was the 
students who passed at the advanced level, there were 20 
percent of those kids who had any number fit into those 
categories. From that you learn a couple things. One, just 
because you're in one of those categories doesn't mean you 
can't succeed and doesn't mean you can't succeed at a high 
level.
    The second thing you learn is that, again, it's the 
marginal cost issue, that it's going to cost. As you go further 
away from the passing score, you're dealing with kids that have 
more and more issues. The only way we can do that is on some 
kind of average basis. We didn't make any attempt to say here's 
what you need for economic disadvantagement or what you need 
for special ed. But we put our cost model together in a way 
that the cost of the intervention programs would apply to all 
the kids in those core tiles.
    Mr. Tiberi. But why not consider every dollar was spent 
prior to No Child Left Behind, every Federal dollar.
    Dr. Fleeter. Because that would be intermingling the total 
cost issue with the marginal cost issue. I think the point 
there would be it's--if you're--you look at the dollars then 
being spent right now, and our view of this is that those 
dollars, Federal, state or local, that they're contributing to 
the level of performance that we could look at in 2003. And so 
if you have that level of performance, then we need to go and 
raise that level of performance.
    Our presumption there, and I think Mr. Rebarber pointed 
out, that we clearly need additional work to say what is this 
money being spent on, are there ways that money right now could 
be spent more productively and you can do better. We made some 
assumptions to assume that our core tiles students closest to 
passing, those kids ought to be able to get up to speed without 
additional resources. As you go further away, we made 
assumptions that you're going to need to do more for the kids.
    Chairman Boehner. Mr. Rebarber, quickly. We're going to go 
to Mr. Rebarber.
    Mr. Rebarber. I'll try to be brief. On this issue of the 
last quarter, the quarter that's not mentioned apparently in 
the current Ohio statute and regulations, the previous state 
law, one of the assumptions in the Ohio--initial Ohio study 
that we questioned is the notion that the great majority of 
these students need tutoring, tutoring including the reading 
recovery model, when you have one-on-one or very small one-, 
two-, three-person student groups, you're going to get an 
improvement effectiveness almost regardless of whether it's 
reading recovery, whatever it is, almost regardless of the 
dollars that are provided.
    One of the considerations that I hope this Committee and 
all educators consider, it's not just what's effective, what's 
cost effective. There's always a limited pool of dollars, 
whatever that amount is.
    The one-on-one tutoring is for the great majority of that 
25 percent. The evidence is that it's probably the least cost 
effective of a lot of other approaches. Instead of a quarter of 
our kids, the percent that probably need that, if we had 
effective practices, teachers knowledgeable about their 
content, et cetera, it's probably closer to one or 2 percent of 
all students. There are many groups that have reviewed the 
evidence on what are effective remediation approaches. Ideally, 
we'd like to have one tutor or teacher for all children. But 
the reality is the money isn't there. So even for that bottom 
quarter, there are highly effective approaches that are not 
that small and that expensive.
    Chairman Boehner. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I just have one comment 
quickly on what Mr. Tiberi said about the student with the 
vision problem. I think that is something that we've overlooked 
as well. I think it speaks to the fact that education is one 
component, but also making sure these young students have 
adequate health care coverage. And having millions of kids 
without health care is another issue that would help us achieve 
the standards that we have here.
    First, Mr. Rebarber, I know there's a conflict here--I 
don't know if anyone else noticed--between you and Dr. Fleeter. 
One of the questions--one of the issues that Dr. Fleeter 
brought up was the premise--the economic premise that trying to 
increase the number of outputs would cost money and therefore 
increasing the number of inputs. With that premise, do you 
start there as well.
    Mr. Rebarber. I think you cannot just make assumptions 
based on a broad premise of that kind. I think you have to 
actually look at the real evidence on what it costs to educate 
kids. I don't think the--in theory, it sounds fine, but if it 
applies to one or 2 percent rather than 25 percent, you get 
different results. That principle sounds fine in principle, but 
the application is very questionable, in my judgment.
    Mr. Ryan. So you're saying that we have a 75 percent level; 
we want to get to 100. You're saying that it will not cost any 
more per student to educate that bottom 25 percent than it 
would cost to educate the other 75 percent.
    Mr. Rebarber. Actually, what we're saying is that some of 
the additional expenditures that are funded through No Child 
Left Behind, the increases beyond previous expenditures, are 
going to get us improved student achievement if they're spent 
well. We identified some fairly expensive uses of those funds. 
It's well known that there is a shortage of math and science 
teachers at the high school level, special ed. in some areas. 
We identified the costs included in our assumptions, even 
though many states aren't going down this path, of completely 
eliminating the differential compared to the private sector 
because we know that's a particular challenge. There are some 
additional expenses, and they funded those specific expenses.
    As far as others beyond those new moneys, we just think the 
most prudent thing to do is to look at what is the most we can 
accomplish by restructuring and reallocating current 
expenditures and then see where that gets us. The life of this 
bill is not through 2014. There's going to be a normal period 
of review of this legislation like there has been of every 
other ESEA legislation. We think at this point in time there 
are many things that states have not yet put in place, not just 
the schools, but state policy as well to support the schools. 
And we should see where those get us and then if additional 
money is additional.
    Mr. Ryan. So your opinion in your analysis is that it does 
cost more money to educate those kids, but the increase in 
revenues from the Federal Government is enough at this point to 
satisfy that increase? I'm just trying to clarify.
    Mr. Rebarber. I'm trying to be very specific. Our position 
is that there is substantial improvements, major improvements, 
not incremental improvements, that can be accomplished with the 
new funding and with restructuring and reallocating current 
dollars. They might be spending more in some years and less in 
others. Our recommendation is that, with those projected 
increases, we should see how far we can get with the problem 
reforms and review whether we need more money on that.
    Mr. Tomalis. May I address that for a second? My back-of-
the-envelope estimate, which basically says I did it while I 
came on the plane, is that we spend on average, I believe, 
about 10 to 15 billion dollars a year on professional 
development. That's probably very conservative numbers. It's 
probably much more than that. The question is, will we do 
better by spending 15 to 20 rather than 10 to 15, or do we look 
at what we're getting for the 10 to 15 billion.
    I think that's one of the issues that I have with the Ohio 
study, is when you talk about marginal cost, you're under the 
assumption that that 10 to 15 billion expenditure is perfect. 
And I take issue with that, that we aren't looking back at what 
we're doing to make sure that we're doing it right.
    The other thing that I think that's often lost in those 
analyses is that you see around the country is nonfinancial 
decisions that are made and the impact that they have on the 
education of a child. I agree that the teacher is the most 
important actor--outside the parent, the teacher is the most 
important actor in this endeavor of education. The farther away 
you get from that blackboard, the less of an impact that you 
have. Those of us at the Federal level, I take--I smile a 
little bit when I hear about this is a one size fits all and 
how this is not a one size fits all. It could not be a one size 
fits all piece of legislation when you have 15,000 different 
school districts in this nation and how that impacts at the 
local level.
    I'll give you one example. Prior to my job in the Federal 
Government, I was in the superintendent of Philadelphia's 
office one time. Philadelphia is not known to be a star as far 
as academic achievement was concerned. We had a conversation 
about staffing and getting quality teachers in the classroom. A 
decision that was made in Philadelphia between the school board 
of Philadelphia and the Philadelphia teachers union, and it's 
very common in many urban districts, says, in essence, that as 
teachers become more and more senior, they get to choose the 
schools at which they teach in. That in and of itself is a 
decision collectively made at the local level between those two 
entities.
    What does that do? Human nature is such that as I become 
more of a senior teacher, I tend to go to areas that are less 
difficult for me, my environment is much less difficult for me, 
except the blessed soles that stick it out in those tough 
schools. But what happens is that those children who are the 
most in need of the most experienced teachers in those 
circumstances get the green teachers and the rookie teachers. 
Now, that wasn't figured into the Ohio study about some of 
these decisions that are made at the local level that do not 
impact a dollar at all. But what would happen if you had an 
agreement in place that said the need that is the greatest, our 
most experienced teachers will go. What would that do about 
changing the educational foundation? These are some of the 
conversations as we continue. I talked before, 10 years from 
now we'll probably be spending a trillion dollars a year on K-
12 education. As we go forward, we have to look at more than 
financial issues.
    Mr. Ryan. I understand your point, but at the same time, 
you can take a situation like that and say you're going to have 
to pay that senior teacher more to go back into a more 
difficult--
    Mr. Tomalis. The teacher would have earned the same under 
the contract whether they're at the more difficult school or 
easier school.
    Mr. Ryan. I don't think you can say that, though. I don't 
think, sitting here, we can say that if we change that 
particular aspect of the system that you're talking about--and 
yes, it may save us more, but it may cost us more money to do 
that.
    Mr. Tomalis. I agree. I think No Child Left Behind 
represents certain circumstances where you do give more pay to 
teachers in higher demand areas. You give merit pay or 
differential pay. Unfortunately--and this is another problem I 
have, is that they don't look at that solution as a viable 
solution.
    Dr. Fleeter. I just want to say I agree with the point that 
Mr. Tomalis made about distribution of the teachers. I want to 
point out that we've done--for the last 2 years, we've done a 
study for the Ohio Department of Education and the State Board 
of Education that looked at the teacher conditions of teacher 
supply and demand. One of the things that we found is that the 
turnover and attrition rate in teachers is different across 
different types of districts. It's most pronounced in the urban 
and rural poor districts. There's--part of the aspect of what 
Mr. Tomalis said is that you have fewer experienced teachers in 
the places where you need them most. So I think that--I agree 
completely that there are ways to realign that, but I don't 
think it would be costly to do that because we need to come up 
with a way to get the teachers staying in places that we need 
them. So within the district there is an allocation issue that 
occurs, but there's another allocation issue that's occurring 
across different districts.
    Mr. Ryan. If we can get to 100 percent without spending a 
dime more, we're all for it. I think we're all realistic in the 
fact that we say we have to make these investments.
    Dr. Fleeter, one of the criticisms for your report, which I 
thank you for doing, just because being the first guy to stick 
your head out of the fox hole is a dangerous proposition to 
begin with.
    Dr. Fleeter. More dangerous than I thought.
    Mr. Ryan. I appreciate your courage. One of the criticisms 
was the fact that in your analysis you did not--I guess cheap 
is not a good word, but find the most efficient way to 
intervene, the most cost-effective intervention. And your 
critics say that you didn't look at all the different options. 
Can you explain to us, one, is why you didn't do that, and two, 
is do you feel that the techniques like the one-on-one tutoring 
are in a normal range that other means of intervention would 
cost about the same.
    Dr. Fleeter. Two different questions there. I think the 
first one, in terms of the cost effectiveness, that's partly 
related to the issue of can we do more with the dollars that we 
have right now. I agree that one of the things we need to do is 
get a much better understanding of what's going on currently 
and are there things that can be changed and we don't know that 
at this point. From what we did in terms of putting together 
our cost model--we say this a number of times in our paper, 
that our model with the interventions is a model to determine 
the cost and determine at the statewide level and we based it 
on consultation with the Ohio Department of Education and 
practitioners. Just to give an example in Columbus that they 
do--we come in and ask a district like Columbus which is a 
larger district, which has lots of issues in terms of student 
achievement, what is it that you're doing, what is it that 
you're doing that's working. They're doing a variety of these 
programs. They've got after-school tutoring. They've got the 
one-on-one intervention. They've got the summer school option. 
They do evaluations of every one of these studies so they can 
document and understand what's working. I was impressed to see 
the knowledge and understanding of the practices that it has. 
The problem is that they don't have the funding in order to do 
this for all the kids that need it.
    Just to give you an example. We live in Columbus. My two 
kids go to a Columbus public school. In their reading recovery 
one-on-one intervention, they can do four kids in each grade. 
It works. But their need would be to do much more than that as 
well. I think, again, if someone can document to me that what 
we have here is that we've put more cost into something that's 
less cost effective in something else, I would welcome to see 
that documentation. I'm not convinced to the extent that Mr. 
Rebarber is that we have that yet. If we've done something to 
overestimate it, then we're in better shape than I think. The 
main idea--we came up with a reasonable cost model that has 
those range of options.
    Chairman Boehner. Rarely will you ever see a congressional 
hearing where the Chairman's being as lenient as I have been 
today with all of my colleagues and our witnesses. Are there 
any follow-up questions.
    Mr. Tiberi. Chairman, thank you for your indulgence. Just 
to continue along the line of what Representative Ryan talked 
about. I appreciate the Chairman's willingness to give me a 
little leeway here. On this cost issue on the analysis, let me 
just pull one thing out of the report, following up on his 
questioning. You make the assumption under professional 
development that every instance of professional development a 
teacher's going to have to improve him or herself is going to 
cause the cost to the local school district of a qualified 
substitute. Why make that assumption? Why can't a teacher if 
it's permitted under the bargaining agreement or negotiate with 
the school allow the teacher to do professional development on 
an in-service day or weekend or after school? Why make the 
assumption it's going to be during school hours.
    Dr. Fleeter. That's a good question. I think part of that--
when I focus grouped with the treasurers, that one was one of 
the issues that they articulated. One of the--obvious to me to 
say why can't you do some stuff over the summer when you have 
teachers who have time on their hands to do that, and they 
pointed out an issue--there's a timing issue of when the funds 
need to be allocated and when they can be spent. As far as when 
you can do this, there are in-service days that are in the 
system right now, and I think what you're talking about is sort 
of we look at that as an opportunity cost issue. If you're 
going to add in-service days, it's going to be at the expense 
of saying, OK, there's going to be less classroom time than 
there is right now. We look at that and I say that's a wash to 
do it that way. You're going to have five in-service days. The 
kids aren't there. That's five less days they're in the 
classroom getting education. We can do this on the weekend. 
That would be the one area we can do that.
    Mr. Tiberi. You would agree that there's a cost associated 
with your assumption that may not be there.
    Dr. Fleeter. It would be to the extent that there could be 
some ways you could add some of that. I will note one criticism 
on the professional development that we underestimated the 
amount that you needed by half.
    Mr. Tiberi. Thank you.
    Chairman Boehner. Mr. Ryan. Anything.
    Mr. Ryan. One or two quick ones.
    Chairman Boehner. Oh, I heard that quick ones. All right.
    Mr. Ryan. Thank you, Mr. Chairman. I do appreciate it, but 
I think this is a great discussion that we're having here.
    One comment that I'd like to make, Mr. Tomalis talked about 
the principal in St. Louis got her students to 80 percent. I 
would argue that and be in full support. And we all know the 
value of great teachers and great principals to get a school to 
a certain level. What I think we can't forget is she got them 
to 80 percent. We need to get them to 100 percent.
    Mr. Tomalis. She's not quitting.
    Mr. Ryan. I'm sure she's not quitting. I think she would 
probably say as well at some point, to get from 80 to 100, 
she's going to need more resources to do that.
    One question that I heard a lot about this $6 billion and 
unspent education funds. And for those of us who are new to 
this Committee, can you explain to us--because I know states 
have 27 months in which to spend the money, and I'm hearing a 
lot of different angles to this. Is that money--is that $6 
billion already committed to programs we have in place now? 
Because the spin that--I'm understanding that that's new money, 
but my understanding is it's already committed money.
    Mr. Tomalis. Annually the Congress appropriates dollars in 
its various programs to the states, not just education but 
across the board, and saying to those states here's your pot of 
money this year to spend. When states have an obligation--I 
mean states in the generic sense, not the department or any one 
entity. When they have an obligation against that, they draw 
the money down against that obligation. They take the money. 
Usually it comes in the form of salaries. Most Title I moneys 
are in the form of salaries or expenses. They don't draw it 
down until they have that obligation. What the $6 billion says 
is that there are no obligations against that dollar at that 
time. So Congress appropriated the money in years past and they 
haven't had an obligation up against that money at that time. 
That's what it simply means. This year we appropriated--or you 
appropriated an additional 12, 13 billion dollars, and so then 
they're going to draw down that money. Once they're done 
drawing down that money--that money goes back to the year 2000 
that's been sitting in the Federal treasury waiting to be drawn 
down.
    Mr. Ryan. Can that money be drawn down for the new mandates 
that have been imposed.
    Mr. Tomalis. It's part of Title I. It goes to pay for the 
implementation of ESEA and other programs. There's also IDEA 
money that is sitting there waiting to be drawn down as well.
    Chairman Boehner. And Title I funds and funds for--the fund 
that was created to help schools in need of improvement, that 
money has been sitting there as well.
    Mr. Tomalis. And it's not to say that the money isn't 
necessary. The money is necessary. The question is, how quickly 
do they need to get the money. You're now going to go back and 
you're debating another 12, 13 billion dollars. What we've 
seen, interestingly, when we raised this issue as the amount of 
money that's in the Federal treasury, the acceleration of the 
draw-down has been tremendous. That you've seen when it wasn't 
part of the public discussion this money was sitting there. 
When it became part of the public discussion, draw-down has 
accelerated quite a bit.
    Mr. Ryan. Help me out here. So that money in--did you say 
2000, 2002.
    Mr. Tomalis. Between 2000--I believe it's 2000, 2001. I'll 
verify that. Through last year. It's not current year money. We 
have the additional 12 or so this year to spend as well.
    Mr. Ryan. One final question to Dr. Ross. I feel like I 
left you out. You didn't seem too disappointed. Some of the 
findings that were talked about today, especially by Mr. 
Rebarber, that additional Federal funding is not needed to 
improve student achievement. I know you talked a lot about 
attitude and focus within the school district. In your own 
experience with your own school district, do you have enough 
money.
    Dr. Ross. One of the things I spoke about in my comments 
was I think superintendents, boards of education need to look 
at the resources they have available to them and we need to be 
measuring the activities that we're using and spending those 
funds on. I think that would be the first thing we do before we 
should be asking for more additional money. I think we can 
effectively use our resources more effectively than we have in 
the past if we base it on analysis. But that all happening, I 
think you make the decision, if we're effectively using our 
resources, yes. But I don't think we've done the first yet.
    Chairman Boehner. Let me thank my colleagues for coming 
today and thank our witnesses for their excellent testimony. I 
think we shed quite a bit of light on No Child Left Behind.
    I think there's one point that I'd like to make. And that 
is that I don't know if we know how to educate all of our 
children. We don't know how we're going to accomplish this 
goal. I think it's rather difficult to describe or try to 
ascribe a number to how much it's going to cost. But I've often 
said the most important thing about No Child Left Behind is 
that it's going to cause a debate in every community in 
America. That debate has been underway. It is underway. And 
it's a debate that our citizens need to have about whether 
we're going to educate all of our kids, how are we going to do 
it, and how much is it going to cost. This is an important 
conversation as we get a foothold into the 21st century that 
will have a tremendous impact on the society of tomorrow. So 
thank you all for coming.
    This hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]

OEA, NEA, Leave Facts Behind in Attacks on Bipartisan Education Reform, 
                  Fact Sheet Submitted for the Record
[GRAPHIC] [TIFF OMITTED] 92410.011

   Letter from Gary L. Allen, President, Ohio Education Association, 
                        Submitted for the Record
[GRAPHIC] [TIFF OMITTED] 92410.012

  K-12 Rules/Leave Parts of NCLB Behind, Editorial Submitted for the 
                     Record by Rep. Betty McCollum
[GRAPHIC] [TIFF OMITTED] 92410.013

                                 <all>

</pre></body></html>
